No. 20-637
In the

Supreme Court of the United States
DARRELL HEMPHILL,
Petitioner,
v.
THE STATE OF NEW YORK,
Respondent.
On Writ of Certiorari to the Court
of A ppeals of New York

BRIEF FOR RESPONDENT
Gina Mignola*
Deputy General Counsel
Nancy D. Killian
Chief of Appeals
Noah J. Chamoy
Robert C. McIver
Paul A. A ndersen
Morgan Namian
Assistant District Attorneys

Darcel D. Clark
Bronx County District
Attorney’s Office
198 East 161st Street
Bronx, New York 10451
(718) 838-7199
mignolag@bronxda.nyc.gov

*Counsel of Record
Counsel for Respondent
306010

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether, or under what circumstances, a criminal
defendant can, by his conduct at trial, open the door and
relinquish the right to object to an out-of-court statement
that would otherwise be barred by the Confrontation
Clause.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
I.

Pet it ioner Shoot s a nd K i l l s Dav id
Pacheco, Jr  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

II. The Prosecution of Nicholas Morris  . . . . . . . . . . 7
III. The Admission of Morris’s Plea Allocution . . . . 10
IV. The Post-Trial Proceedings  . . . . . . . . . . . . . . . . 14
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . 15
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
I.

Defendant Failed to Present his Contention
that the New York Door-Opening Doctrine
is Constitutionally Infirm . . . . . . . . . . . . . . . . . .  17

iii
Table of Contents
Page
II. New York ’s Door- Opening Doctr ine
is in Full Accord with the Petitioner’s
Right of Confrontation . . . . . . . . . . . . . . . . . . . . . 23
A. A criminal defendant may act in a
manner inconsistent with preserving
his constitutional rights—the right
of confrontation is no different . . . . . . . . . . 24
1.

A criminal defendant’s constitutional
rights cannot be used to undercut
the integrity of trial process . . . . . . . . 24

2. S t at e s c a n de ve lop l i m it e d
procedural rules to deter misleading
impressions  . . . . . . . . . . . . . . . . . . . . . . 29
B. New York’s door-opening rule is
constitutional and was properly
applied . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
III. If the Trial Court Erred in Admitting Morris’s
Plea Allocution, the Error was Harmless . . . . . 49
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Adams v. Robertson,
520 U.S. 83 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . 18, 21
Beech Aircraft Corp. v. Rainey,
488 U.S. 153 (1988) . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
Board of Directors of Rotary Intern. v.
Rotary Club of Duarte,
481 U.S. 537 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Bourjaily v. United States,
483 U.S. 171 (1987)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Briscoe v. Virginia,
559 U.S. 32 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
Brown v. United States,
356 U.S. 148 (1958)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Bullcoming v. New Mexico,
564 U.S. 647 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
Cardinale v. Louisiana,
394 U.S. 437 (1969)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Chambers v. Mississippi,
410 U.S. 284 (1973)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

v
Cited Authorities
Page
Coy v. Iowa,
487 U.S. 1012 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Crawford v. Washington,
541 U.S. 36 (2004) . . . . . . . . . . . . . . . . . . . . . . . . passim
Davis v. Washington,
547 U.S. 813 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
Diaz v. United States,
223 U.S. 442 (1912)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Exxon Corp. v. Eagerton,
462 U.S. 176 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Fuller v. Oregon,
417 U.S. 40 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Giles v. California,
554 U.S. 353 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
Griffin v. California,
380 U.S. 609 (1965) . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Harris v. New York,
401 U.S. 222 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
Holmes v. South Carolina,
547 U.S. 319 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

vi
Cited Authorities
Page
Howell v. Mississippi,
543 U.S. 440 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Illinois v. Allen,
397 U.S. 337 (1970)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Illinois v. Gates,
462 U.S. 213 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . 18, 23
James v. Illinois,
493 U.S. 307 (1990) . . . . . . . . . . . . . . . . . . . . . . . . 29, 48
Jenkins v. Anderson,
447 U.S. 231 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Kansas v. Cheever,
571 U.S. 87 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
Kansas v. Ventris,
556 U.S. 586 (2009) . . . . . . . . . . . . . . . . . . . . . 31, 32, 33
Maryland v. Craig,
497 U.S. 836 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Mattox v. United States,
156 U.S. 237 (1895) . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Melendez-Diaz v. Massachusetts,
557 U.S. 305 (2009) . . . . . . . . . . . . . . . . . . . . . . . passim

vii
Cited Authorities
Page
New Jersey v. Portash,
440 U.S. 450 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . 25, 33
New York ex rel. Bryant v. Zimmerman,
278 U.S. 63 (1928)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
People v. Ames,
501 N.Y.S.2d 165 (N.Y. App. Div. 1986) . . . . . . . . . . . 48
People v. Bagarozy,
522 N.Y.S.2d 848 (N.Y. App Div. 1987) . . . . . . . . . . . 48
People v. Cook,
498 N.Y.S.2d 414 (N.Y. App. Div. 1986) . . . . . . . . . . . 36
People v. Francis,
131 N.Y.S.3d 342 (N.Y. App. Div. 2020)  . . . . . . . . . . 48
People v. Hardy,
418 P.3d 309 (Cal. 2018)  . . . . . . . . . . . . . . . . . . . . . . . 35
People v. Hopson,
396 P.3d 1054 (Cal. 2017)  . . . . . . . . . . . . . . . . . . . . . . 36
People v. Kello,
746 N.E.2d 166 (N.Y. 2001) . . . . . . . . . . . . . . . . . . . . . 30
People v. Ko,
789 N.Y.S.2d 43 (N.Y. App. Div. 2005)  . . . . . . . . . . . 34

viii
Cited Authorities
Page
People v. Kozlowski,
898 N.E.2d 891 (N.Y. 2008)  . . . . . . . . . . . . . . . . . . . . 46
People v. Massie,
809 N.E.2d 1102 (N.Y. 2004)  . . . . . . . . . . . . . . 2, 22, 38
People v. Melendez,
434 N.E.2d 1324 (N.Y. 1982)  . . . . . . . . . . . . . . . . . . . 48
People v. Reid,
971 N.E.2d 353 (N.Y. 2012)  . . . . . . . . . . . . . . . . passim
People v. Richardson,
943 N.Y.S.2d 599 (N.Y. App. Div. 2012)  . . . . . . . . . . 47
People v. Schlesinger Elec. Contractors, Inc.,
39 N.Y.S.3d 135 (N.Y. App. Div. 2016) . . . . . . . . . . . . 47
People v. Soto,
44 N.E.3d 930 (N.Y. 2015)  . . . . . . . . . . . . . . . . . . . . . 44
People v. Taylor,
20 N.Y.S.3d 708 (N.Y. App. Div. 2015) . . . . . . . . . . . .34
People v. Thompson,
970 N.Y.S.2d 620 (N.Y. App. Div. 2013) . . . . . . . . . . . 46
People v. Vines,
251 P.3d 943 (Cal. 2011)  . . . . . . . . . . . . . . . . . . . . . . . 35

ix
Cited Authorities
Page
Riley v. California,
573 U.S. 373 (2014) No. 13-132, 2013 WL 5436662 . 21
Sprietsma v. Mercury Marine, a Div. of
Brunswick Corp.,
537 U.S. 51 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
State v. El’Ayache,
618 P.2d 1142 (Haw. 1980)  . . . . . . . . . . . . . . . . . . . . . 36
State v. Garcia,
652 P.2d 1045 (Ariz. 1982)  . . . . . . . . . . . . . . . . . . . . . 36
State v. Groce,
111 A.3d 1273 (Vt. 2014) . . . . . . . . . . . . . . . . . . . . . . . 37
State v. Payne,
34 A.3d 370 (Conn. 2012)  . . . . . . . . . . . . . . . . . . . . . . 37
Street v. New York,
394 U.S. 576 (1969)  . . . . . . . . . . . . . . . . . . . . . . . . 18, 23
Taylor v. Illinois,
484 U.S. 400 (1988) . . . . . . . . . . . . . . . . . . 26, 27, 28, 32
United States v. Jones,
565 U.S. 400 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
United States v. Morel,
751 F. Supp. 2d 423 (E.D.N.Y. 2010) . . . . . . . . . . . . . 46

x
Cited Authorities
Page
United States v. Nobles,
422 U.S. 225 (1975) . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
United States v. Robinson,
485 U.S. 25 (1988) . . . . . . . . . . . . . . . . . . . . . . . . . 25, 26
United States v. Sine,
493 F.3d 1021 (9th Cir. 2007) . . . . . . . . . . . . . . . . . . . 20
Walder v. United States,
347 U.S. 62 (1954)  . . . . . . . . . . . . . . . . . . . . . . . . . 28, 32
Yee v. City of Escondido, Cal.,
503 U.S. 519 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Statutes and Other Authorities
U.S. Const., amend. IV  . . . . . . . . . . . . . . . . . . . . . . . . . . 32
U.S. Const., amend. V  . . . . . . . . . . . . . . . . . . 25, 26, 32, 33
U.S. Const., amend. VI  . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
N.Y. C.P.L. § 470.05(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
N.Y. Penal Law § 125.25(1) . . . . . . . . . . . . . . . . . . . . . . . 13

xi
Cited Authorities
Page
Federal Rules of Evidence 106 . . . . . . . . . . . . . . 33-34, 35
J. Wigmore, Evidence in Trials at Common Law
(1st ed.1904) . . . . . . . . . . . . . . . . . . . . . . . . . . . 33, 36, 48
Charles Alan Wright et al., Federal Practice and
Procedure (2d ed. 2021)  . . . . . . . . . . . . . . . . . . . . 30, 37
Daniel J. Capra & Liesa L. Richter, Evidentiary
Irony and the Incomplete Rule of Completeness:
A Proposal to Amend Federal Rule of Evidence
106, 105 Minn. L. Rev. 901 (2020) . . . . . . . . . . . . . . . 35
Francis A. Gilligan & Edward J. Imwinkelried,
Bringing the “Opening the Door” Theory to A
Close: The Tendency to Overlook the Specific
Contradiction Doctrine in Evidence Law,
41 Santa Clara L. Rev. 807 (2001) . . . . . . . . . . . . . . . 37
Jennifer B. Sokoler, Between Substance and
Procedure: A Role for States’ Interests in
the Scope of the Confrontation Clause,
110 Colum. L. Rev. 161 (Jan. 2010)  . . . . . . . . . . . . . . 32
Kenneth S. Broun et al., McCormick on Evidence.
(8th ed. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30, 35
Pamela R. Metzger, Confrontation Control,
45 Tex. Tech L. Rev. 83 (2012) . . . . . . . . . . . . . . . . . . 28

1
JURISDICTION
The petition was filed on November 6, 2020, and
granted on April 19, 2021. This Court lacks jurisdiction
over petitioner’s claim that New York’s opening-the-door
rule violates the Confrontation Clause because petitioner
failed to present it to the New York State Court of Appeals.
See infra Point I.
INTRODUCTION
Petitioner was tried and convicted of murder for having
fired the 9-millimeter bullet that killed two-year-old David
Pacheco, Jr. on Easter Sunday 2006. At trial, the court
permitted the People to elicit a redacted and very brief
plea allocution by a non-testifying third party—Nicholas
Morris. In his allocution, Morris mentioned only his own
conduct—that he had possessed a .357 magnum. The
allocution did not mention the shooting, nor anyone else’s
conduct. Moreover, the allocution was entirely cumulative
to the trial testimony of petitioner’s accomplice who, at
trial, was fully cross-examined. Nevertheless, because the
plea allocution was a formal declaration to the authorities
and was offered to prove the truth of the matter asserted,
it constituted testimonial hearsay that ordinarily is barred
by the Confrontation Clause. Crawford v. Washington,
541 U.S. 36, 64-65 (2004).
New York allows the admission of an out-of-court
statement that is otherwise inadmissible under the
Confrontation Clause if a defendant, by his actions at
trial, opens the door to that statement. People v. Reid,
971 N.E.2d 353, 356 (N.Y. 2012). The trial court admitted
the plea allocution under this theory. Before this Court,

2
petitioner claims for the first time that the Reid openingthe-door rule is unconstitutional.
Petitioner never presented his claim about the
constitutionality of New York’s rule to the state court and,
therefore, it is not appropriate for review by this Court
now. Moreover, this claim lacks merit. States are permitted
to craft procedural rules governing a criminal defendant’s
ability to protect his rights under the Confrontation
Clause. See Melendez-Diaz v. Massachusetts, 557 U.S.
305, 313 n.3 (2009). In New York, door-opening is a
procedural rule that requires a twofold inquiry: “whether,
and to what extent, the evidence or argument said to open
the door is incomplete and misleading, and what if any
otherwise inadmissible evidence is reasonably necessary
to correct the misleading impression.” Reid, 971 N.E.2d at
357 (quoting People v. Massie, 809 N.E.2d 1102, 1105 (N.Y.
2004)). Here, rather than relying only on proper evidence
and arguments relating to a third-party culprit, at trial,
defense counsel pursued a persistent course of conduct
that the trial court had previously ruled was misleading
and improper. Under the unique circumstances of this
case, the court was right to conclude that counsel, by
his intentional conduct at trial, had opened the door and
relinquished the right to object to the admission of the
allocution on Confrontation Clause grounds.
STATEMENT OF THE CASE
I.

Petitioner Shoots and Kills David Pacheco, Jr.

On April 16, 2006, petitioner, clad in a light-blue
sweater, shot a 9-millimeter semi-automatic pistol at least
five times at a Hispanic man across Tremont Avenue in

3
The Bronx. An errant 9-millimeter bullet struck and killed
two-year-old David Pacheco, Jr., as Pacheco rode in the
back seat of his mother’s minivan. Pet. Cert. App. 8a-9a.1
Minutes earlier, petitioner and his cousin (and longtime
associate) Ronnell “Burger” Gilliam had been on the losing
end of a street fight at that location against members of
a Hispanic family of five. 2 After the fisticuffs, petitioner
fled briefly, then returned to the scene and opened fire,
aiming towards one of the men from the altercation.
Petitioner’s bullet struck young David instead. Tr.56,97879,992-93,996-99.
At trial, nine years later, petitioner presented a
third-party culpability defense. Although petitioner did
not testify, counsel argued that there was evidence to
suggest that Gilliam’s best friend Nicholas Morris was
the man who had fired the fatal shot. Tr.32-36. Refuting
that defense, Gilliam testified that his cousin, petitioner,
and not Morris, was the shooter. Tr.979-80. Gilliam was
uniquely positioned to know the true identity of the shooter
because Gilliam was a key figure in both the altercation
and the shooting, and he had longstanding relationships
with both petitioner and Morris. Tr.350,987-88.
1. Unless otherwise indicated, citations to the record are as
follows: Joint Appendix by “JA.__,” trial transcripts by “Tr.__,”
Petitioner’s Appendix for his Petition for a Writ of Certiorari by
“Pet. Cert. App.__a,” and Respondent’s Opposition to the Petition
for a Writ of Certiorari Supplemental Appendix by “Res. Cert.
Supp. App. __a.” Occasionally, a citation is to a transcript other
than the jury trial, which is identified by date or other identifying
information. Petitioner’s Merits Brief is cited by “Pet. Brief __.
2. Denise Marisol Santiago; Juan Carlos Garcia, the father of
her soon-to-be-child; Brenda Gonzalez, her mother; Jose Castro,
Brenda’s husband; and Jon-Erik Vargas, Juan Carlos’ cousin.
Tr.257,441,803-04,839,876.

4
At trial, Gilliam explained that after the fight, and
with his newfound adversaries in pursuit, he called Morris
for help. Gilliam also called petitioner and asked him to
return. Tr.978,988. Within minutes, petitioner returned
to the scene, exited his girlfriend’s car, and, over Gilliam’s
protest to “hold up,” opened fire. Tr.979,997-1000,1157-58.
Morris was just arriving when the shooting began. Tr.1001.
After they fled and retreated to Gilliam’s apartment,
Morris handed Gilliam a .357 magnum. Petitioner handed
over a 9-millimeter and the sweater he had been wearing
that day with instructions for Gilliam to discard all three
items. Tr.980. Gilliam disposed of the two firearms but
forgot to dispose of the sweater. Tr.981.
Notably, there was never any reason to think that
Gilliam was shifting responsibility for the shooting from
himself by pointing the finger at petitioner. There were
several eyewitnesses to the shooting and based on their
descriptions of the participants it was undisputed that
Gilliam was one of the combatants in the initial altercation,
but not the shooter. Additionally, Morris—who weighed
almost 240 pounds, had a prominent scar down the right
side of his face, and no tattoo on either arm—also did not
fit the description of the shooter. Petitioner, on the other
hand, matched the description of the shooter that had
been provided by the eyewitnesses: a tall, thin African
American man with a tattoo. Tr.704,705,720,752,1629.
Many of the eyewitnesses had to deal with the
challenges of a cross-racial/stranger identification.
What made it even more difficult for them to accurately
identify the shooter was the fact that, at the moment of
the shooting, the stranger with the gun was across the
street from them, his face was partially obscured by a

5
brimmed hat, and the shooting was fast-paced, chaotic,
and harrowing. Tr.445-48,1028,1094-95.
The one consistency among all the witnesses related
to an item of clothing that the shooter was wearing: a
light-blue sweater. Eight witnesses testified that the
assailant wore a light-blue sweater. Tr.260,267; Tr.35051; Tr.442,447-48,451; Tr.840,862-63; Tr.877; Tr.1081;
Tr.1092-93; Tr.1160,1172. 3 Only one described the garment
as a blue golf shirt, adding that it had an “alligator” logo.
Tr.809.
At trial, Gilliam testified that petitioner was wearing
a blue sweater when he shot Pacheco, Tr.998, while
Morris was wearing a black t-shirt. Tr.1051. Gilliam’s
account on this critical point was fully corroborated.
First, petitioner’s grandmother confirmed that petitioner
was wearing a light blue sweater on the day in question.
Tr.602-03. Additionally, a disinterested witness, Michelle
Gist, who had seen the initial altercation and the shooting’s
aftermath independently confirmed that fact. Gist knew
petitioner, Morris and Gilliam, and identified petitioner
as the combatant who wore a light blue sweater and fitted
hat. Tr.351-52. She placed “Nick” at the scene after the
shooting. Tr.354.
Notably, although the police never recovered the guns
because Gilliam had discarded them, the police recovered
a light blue sweater from Gilliam’s apartment within hours
3. The witnesses otherwise only differed as to minute details
in the description, like whether it was vertically-embroidered
or knitted, and whether the sleeves were short or merely rolled
up. Compare Pet. Brief 8, with Tr.267,284,295-96,317,349,35152,379,445-48,862,863,877,987,1088,1092,1096-98,1160,1171.

6
of the shooting. Having forgotten to discard the sweater,
Gilliam called his apartment and asked his brother to get
rid of it. Tr.984. Police were at the apartment at the time
and overheard the call. Tr.667,1494. Directed to a closet,
Detective Ronald Jimick found a light-blue sweater that
smelled of burnt gunpowder. Tr.663-64,667,741. 4 The
sweater matched the description that the witnesses had
provided, right down to the alligator logo and vertical
cable pattern. Exhibit 84 (photograph of sweater): Tr.16364. Subsequent testing revealed that DNA material on
inside of the collar matched petitioner’s DNA. Tr.524,567.
The DNA match took years because, the night of the
shooting, petitioner had fled to North Carolina and hid
with his girlfriend, only one of his children, and Gilliam.
Tr.985,1003. Petitioner made the decision to flee after
learning Gilliam had failed to dispose of the sweater.
Tr.984. Upon arrival, petitioner moved to a different
hotel or home each night, Tr.1004-06, until eventually he
leased a residence under the alias “Darrel Davis.” Tr.941.
Petitioner initially abandoned a daughter who later joined
him in North Carolina, permanently abandoned a music
studio in New York, and had his girlfriend abandon her
twenty-year career as a paramedic. Tr.784-85,984-85,10021003. Petitioner was ultimately apprehended in North
Carolina after being located through a trap and trace
on his girlfriend’s phone. Tr.774-75,937. The Appellate
Division found that petitioner’s efforts to “avoid[] law
4. Due to the smell, Jimick drafted paperwork and sent
the sweater to the NYPD ballistics laboratory for gunpowder
testing. Tr.667,741. No testing was conducted, however; the lab was
not certified to test a suspect’s clothing for primer residue. The
technician only looked for bullet holes or damage and found none.
Compare Pet. Brief 9, with Tr.1112,1114.

7
enforcement” was “overwhelming evidence demonstrating
[his] consciousness of guilt.” Pet. Cert. App. 14a.
II. The Prosecution of Nicholas Morris
Later on the day of the shooting, Gist identified
Gilliam as one of the participants in the fracas, giving
police their first investigative lead. Tr.661-62. That led
them to search for his known associates, including Morris.
Tr.668,742. At Morris’s apartment hours later, Jimick
found one 9-millimeter and three .357 caliber bullets. 5
Tr.669,679,749-51.
That same night, Morris, hearing he was a suspect,
gave an interview at News 12 The Bronx and displayed his
arms: he had no tattoos. Tr.18-19 [09/21/2015]; Tr.408,411.
The police, however, arrested Morris. Tr.683. Jimick
observed bruises on Morris’s knuckles. Tr.721,752.
Morris’s arrest was broadcast on television. T.682.
Two witnesses, Santiago and Gonzalez, saw the broadcast
and noted that he looked heavier than the shooter.
Tr.461,466-67,844. A third, Castro, also saw the broadcast
and thought that Morris was not the shooter. Tr.28083. A fourth, Vargas, saw a photograph of Morris and a
newspaper article identifying him as the suspect early the
next morning. Tr.885-86.
The morning after the shooting, Santiago, Gonzalez
and Vargas selected Morris as the assailant out of a five5. Although the police also recovered other contraband
from Morris’s apartment, the court ruled that the evidence was
irrelevant and inadmissible. Compare Pet. Brief 6 with JA.59-60.

8
person, seated line-up. Tr.684,695,697.6 Morris’s size and
hair were masked by garbage bags and a hat, covering all
but his face. Tr.696. The three witnesses felt compelled to
identify someone, even though Gonzalez and Vargas were
not wearing their glasses either at the time of the shooting
or at the lineup, Tr.446,469,496,501,887, and Vargas, who
had been struck by two cars during the altercation, felt
faint and was unfocused when the shooting occurred.
Tr.311; Tr.449-50,455,849,881,885. Garcia did not identify
Morris in the lineup; the shooter, he said, was not there.
Tr.697,819. Castro was unable to participate. Tr.748.
Having learned of Morris’s arrest, petitioner told
Gilliam that Morris had identified Gilliam as the shooter.
Tr.1008. Petitioner retained an attorney for Gilliam. On
April 26, Gilliam went with his attorney to the police.
Gilliam admitted he had been present at the scene and
named Morris as the shooter. Tr.724,951,953-54,100810. On May 9, realizing Morris had not implicated him,
Gilliam returned with petitioner’s brother and explained
that petitioner was the shooter and told police that he
had disposed of the murder weapon. Tr.725-27,1013-14.
Morris happened to call during Gilliam’s recantation
and asked to speak with Jimick, but Jimick refused to
talk with Morris because Morris was represented by
counsel. Tr.726. Gilliam told Morris he would “make it
right.” Tr.1031. Gilliam was subsequently arrested and
prosecuted for hindering prosecution and tampering with
physical evidence. Later, he was charged as an accessory
to murder. Tr.729-30,1019.
6. Another witness reviewed a photo array with Morris’s
picture and while he stated that Morris “looks like the shooter,”
he did not identify him as the shooter. Compare Pet. Brief 6, with
Tr.781.

9
As the trial against Morris approached, he consented
to a DNA test. Tr.535. Testing established that the DNA
material on the sweater collar did not come from Morris.
Tr.555-59.
In April 2008, the trial against Morris commenced.
After the People’s opening, Morris’s counsel gave an
opening statement emphasizing evidence that tended to
exculpate Morris: the sweater DNA did not match Morris;
the 9-millimeter cartridge recovered from Morris’s
apartment did not match the brand of 9-millimeter bullets
that were used in the shooting; Morris did not match the
shooter’s description; the lineup was flawed; and Gilliam
had called Morris—who lived half a mile away—at his
home phone moments after the initial altercation. Tr.22426,231 (Morris trial, 4/11/2008: attached as exhibit A in
petitioner’s 8/31/15 motion). After hearing this opening,
the People met with counsel and did not oppose defense’s
application for a mistrial. JA.21.
The People reinvestigated; Morris voluntarily
spoke with prosecutors. JA.19,21,38. On May 29, 2008,
the People agreed to permanently dismiss the murder
charges against Morris and to accept a guilty plea for gun
possession. Since Morris had already been incarcerated
for two years, the People agreed not to pursue additional
punishment. Morris pleaded guilty to having possessed
a .357 caliber firearm the day of the shooting and was
released. JA.22,34.

10
III. The Admission of Morris’s Plea Allocution
In 2010, two years after Morris pleaded guilty, Gilliam
entered into a cooperation agreement. Tr.969-70,101920,1026. Then, following petitioner’s extradition in April
2013, petitioner’s trial began in September 2015. Tr.737.
Acknowledging that petitioner intended to present a
third-party culpability defense implicating Morris, the
prosecutor offered to call the witnesses who had initially
implicated Morris. JA.52. To give the jurors context,
the prosecutor also agreed the defense could elicit that
Morris had been arrested and charged with murder,
notwithstanding that an arrest is proof of nothing. JA.5455.
Petitioner’s counsel sought more. He moved to
admit portions of the opening statement that a different
prosecutor had made at Morris’s trial in 2008. JA.4344. After the court denied the request, ruling that the
reference to the opening by the prior prosecutor would
be irrelevant and would tend to mislead the jury (JA.48),
counsel next sought to introduce that Morris had been
“indicted and brought to trial for this crime” as well as
details from law enforcement of “what they [were] crediting
and what information they were not crediting.” JA.53,55.
The court noted that the beliefs of law enforcement, as
opposed to the observations of those who witnessed the
crime, were not relevant and that Jimick’s conclusion about
which account to credit was not admissible. JA.54-56.
After extensive colloquy during which the court
attempted to reach a resolution suitable to both sides
(Tr.103 [10/02/2015], 188-92,198[10/07/2015]; JA.56-57),
the case proceeded to jury selection where the court

11
gave the prospective jury panels an instruction, crafted
and approved by petitioner’s counsel, that they were
“not to speculate about the status of [] Morris. That
evidence is only being admitted for your consideration
in determining the guilt or non-guilt of this defendant.”
Tr.198 [10/07/2015]; JA.63.
After a full airing of the subject, the court’s ruling
was clear: the conclusions the police may have had at one
point about Morris’s or anyone’s guilt were irrelevant and
not to be considered by the jurors as proof that Morris
was the shooter. Despite that ruling, counsel persistently
elicited evidence and made the arguments that the court
had said were out of bounds.
In opening, counsel focused on how police initially
believed that Morris was the “right guy” based in
part on their recovery from his bedroom of an unspent
9-millimeter bullet, the same caliber as the bullet that
killed Pacheco. JA.90. He urged the jury to consider what
the police believed and how those beliefs resulted in the
initial prosecution of Morris. He additionally implied that
the prosecution against Morris failed. JA.87-91. Counsel
covered the same ground during the cross-examination
of Jimick and Gilliam. Tr.767,771-72,1027.
Mid-trial, the prosecutor argued the defense opening
had put in issue that Morris had a 9-millimeter gun at the
scene—where no evidence actually linked the bullet to the
murder weapon—and sought to rebut it with the portion of
Morris’s plea allocution where he admitted to possessing
a .357 caliber firearm the day of the shooting. JA.10104,117. Later, the court, on the prosecutor’s application
and over petitioner’s objection, admitted evidence that

12
law enforcement recovered three .357 caliber bullets
from Morris’s apartment as relevant evidence of Morris’s
conduct. JA.121; see also JA.106,108,110-11,113,116,118,120.
Next, the prosecutor again sought to introduce
Morris’s plea allocution and, at various points during the
trial, the court discussed the issue with the parties. JA.10109,118-122,158-62. After Gilliam testified that petitioner
had shot and killed Pacheco with the 9-millimeter pistol
and that Morris had a .357 (and after Gilliam was fully
cross-examined on that subject), the court granted the
State’s application to admit a portion of Morris’s plea
allocution. It cited People v. Reid (971 N.E.2d 353, 357
(N.Y. 2012)) for the proposition that a defendant can open
the door to testimonial hearsay. The court reasoned, based
on the defense opening and “the examination of witnesses
thus far,” a “significant aspect of the defense” rested on
the fact that Morris was originally “prosecuted for this
homicide,” and in turn, was the “actual shooter.” JA.184.
The court continued, the arguments petitioner presented
and apparently intended to present on summation
would open the door to that aspect of Morris’s allocution
acknowledging his possession of a .357 caliber firearm to
rebut the defense impression. JA.185. Separate from its
Confrontation Clause analysis, the court also found the
allocution met the requirements for a declaration against
penal interest. JA.187; see JA.155-56.
The parties later agreed upon a redacted portion of
the allocution that was read into the record by the court
reporter. JA.190-209. In the allocution, Morris admits that
he possessed a loaded .357 firearm at the time and place
of the shooting. Morris mentions only his own conduct. He
does not refer to the shooting or the earlier altercation.

13
He does not mention anyone else’s conduct. He alone
possessed the weapon.
The redacted allocution included Morris’s counsel’s
comments that Morris was taking the plea against his
“strong advice,” that the State’s proof was insufficient
to indict Morris absent the admissions he was willing to
make, at plea, in order to “get out of jail” that day, and
that he would receive a conditional discharge. JA.207-09.
At the request of petitioner, the allocution did not refer to
the dismissal of the murder indictment. JA.196.
As the court anticipated, on summation, petitioner’s
counsel not only set forth his legitimate third-party
defense that Morris was the shooter, but once again
repeatedly focused on what law enforcement believed
regarding Morris’s guilt. JA.214-16.
The prosecutor did not respond to these allegations
in summation. Instead, he said that Morris, against
his attorney’s advice, admitted to possessing the .357
“[b]ecause that’s the crime he actually committed on April
16, 2006,” rather than the crime petitioner had “framed
him for.” JA.357. The prosecutor otherwise did not rely
on the allocution at all, and the jury did not ask to see it.
JA.364-70.
On December 7, 2015, the jury returned a verdict
convicting petitioner of Murder in the Second Degree
(N.Y. Penal Law § 125.25[1]). Tr.1784-85. On January 6,
2016, the court sentenced petitioner to twenty-five-yearsto life in prison.

14
IV. The Post-Trial Proceedings
In February 2018, petitioner appealed the judgment
of conviction to the Appellate Division, First Department.
Pertinently, in Point II, petitioner did not challenge the
constitutionality of People v. Reid. Instead, petitioner
argued that he had not opened the door under this
standard. Res. Cert. Supp. App.94a-99a.
On June 11, 2019, the Appellate Division affirmed over
a sole dissent. The majority found that admission of the
plea allocution was proper because petitioner opened the
door under Reid. A single dissenting Justice found merit
in two issues not raised on this petition. On October 1,
2019, the dissent granted leave to appeal to the New York
Court of Appeals.
Before the Court of Appeals, petitioner focused the
court’s attention on six issues, and requested general
review of the eight other issues he had raised in the
Appellate Division, as provided by the rules of that Court.
JA.371-99. As to the admission of Morris’s plea allocution,
petitioner argued:
The only issue before this Court is whether
the defense opened the door to Mor r is’
testimonial hearsay, as both the trial judge and
the Appellate Division recognized that these
statements would otherwise be barred by the
Confrontation Clause. . . .
JA.385 (emphasis added). Petitioner asked the Court
of Appeals to conduct the two-fold “opening-the-door
inquiry” as set forth in Reid. JA.385-86.

15
Presented with a narrow issue of the proper application
of its precedent, the Court of Appeals held:
[T]rial courts possess broad discretion to make
evidentiary rulings and control the course of
cross-examination . . .. Here, the trial court did
not abuse its discretion by admitting evidence
that the allegedly culpable third party pled
guilty to possessing a firearm other than the
murder weapon.
Pet. Cert. App. 2a (internal citations omitted). A single
Judge dissented on a ground not raised on this petition.
SUMMARY OF ARGUMENT
Consistent with the Constitution, a criminal defendant,
through his conduct at trial, can open the door and
relinquish the right to object to an out-of-court statement
that would otherwise be barred by the Confrontation
Clause. New York allows the admission of an out-ofcourt statement that is otherwise inadmissible under the
Confrontation Clause if a defendant or his attorney, by
his actions at trial, intentionally elicits evidence or makes
specific arguments that are improper and misleading.
People v. Reid, 971 N.E.2d 353, 356 (N.Y. 2012).
I. Petitioner never presented his current complaint—
that Reid’s opening-the-door rule is unconstitutional—to
the state court and, consequently, that claim should not
be reviewed by this Court now.
II. New York’s rule is constitutional. The rule permits
a trial court, and later an appellate court, to find that

16
a criminal defendant has, through his conduct at trial,
relinquished his right to object to the admission an outof-court statement that would otherwise be barred by the
Confrontation Clause. The doctrine is not an exception
to the Confrontation Clause; it is a procedural rule that
protects the court’s legitimate interest in maintaining the
integrity of the adversarial trial process.
An examination of this Court’s rulings in analogous
situations makes it clear that New York’s procedural rule
comports with the Constitution. Moreover, New York’s
procedural rule does not permit “the abusive practices that
common-law commentators [have] decried.” Pet. Brief 13.
On the contrary, New York courts have only rarely allowed
the introduction of an out-of-court statement based on this
theory. That is because the rule is not triggered whenever
a defendant presents a defense that may contradict the
prosecution’s theory of the case. The rule comes into play
only when the defense attorney engages in an intentional
trial strategy—eliciting evidence and making specific
arguments—that are improper and misleading. Moreover,
the rule permits only evidence that is reasonably necessary
to correct that misleading impression.
Finally, the application of New York’s rule to the
unique facts presented in this case did not violate
petitioner’s right of confrontation. Here, petitioner
deliberately attempted to mislead the jury by eliciting
evidence and making arguments that the trial court had
correctly determined were outside of the jury’s proper
consideration. Under these circumstances, the court was
right to determine that petitioner opened the door to an
out-of-court statement that would otherwise have been
barred by the Confrontation Clause.

17
III. Any alleged error in the admission of the redacted
plea allocution was totally harmless. Not only was there
substantial independent evidence of petitioner’s guilt,
but the plea allocution was cumulative to the testimony
of another testifying witness and balanced by out-ofcourt statements that were made by Morris’s attorney
regarding his motives to accept the deal. Thus, should
this Court find error, the People ask this Court to find
that the error was harmless beyond a reasonable doubt
or, in the alternative, remand to the New York Court of
Appeals for harmless error analysis.
ARGUMENT
I.

Defendant Failed to Present his Contention
that the New York Door-Opening Doctrine is
Constitutionally Infirm.

Petitioner attacks the constitutionality of New York’s
opening-the-door rule that was articulated in People
v. Reid (971 N.E.2d 353 (N.Y. 2012)). The question he
presents for this Court’s review is “whether, or under
what circumstances, a criminal defendant who opens
the door to responsive evidence also forfeits his right to
exclude evidence otherwise barred by the Confrontation
Clause.” This issue is not properly before this Court
because petitioner failed to present it to the state court.
Petitioner never suggested to the state’s highest court,
nor to any New York court, that Reid’s rule violated
the Confrontation Clause. Nor did petitioner posit that
a criminal defendant could not lawfully relinquish the
right to complain about the admission of an out-ofcourt statement that would otherwise be barred by the
Confrontation Clause.

18
Rather, petitioner claimed only that, under the
standard set by Reid, he had not created a misleading
impression or otherwise opened the door and, for that
reason alone, the admission of Morris’s plea allocution
violated the Confrontation Clause. If petitioner had
presented the broader constitutional claim he raises
here—that the Reid rule is unconstitutional—to New
York’s highest court, it would have had no power to reach
the claim because petitioner failed to preserve the claim
before the trial court. This failure is a jurisdictional
defect that precludes this Court’s review. Alternatively,
principles of comity prohibit reversing a state court on an
unpresented claim that the court lacked power to review.
For these reasons, the petition should be dismissed as
improvidently granted.
This Court may review state court judgments only
where a constitutional right is “specially set up or claimed”
28 U.S.C. 1257 (a). Under this limitation, this Court has
refused to consider federal-law challenges to state court
decisions unless that claim “was either addressed by
or properly presented to the state court that rendered
the decision [it has] been asked to review.” Howell v.
Mississippi, 543 U.S. 440, 443 (2005) (quoting Adams v.
Robertson, 520 U.S. 83, 86 (1997) (per curiam)); see Illinois
v. Gates, 462 U.S. 213, 218 (1983). The appellant bears the
burden of demonstrating that the issue was raised and
decided below and that both requirements appear on the
record. Street v. New York, 394 U.S. 576, 583 (1969); see
Gates, 462 U.S. at 218; Cardinale v. Louisiana, 394 U.S.
437, 439 (1969).
Here, the state’s highest court did not address the
constitutional question petitioner presents here. Rather,
it held:

19
With respect to the other claims raised by
defendant, we note that trial courts possess
broad discretion to make evidentiary rulings
and control the course of cross-examination . . .
Here, the trial court did not abuse its discretion
by admitting evidence that the allegedly
culpable third party pled guilty to possessing
a firearm other than the murder weapon.
Pet. Cert. Appx. 2a (internal citations omitted).
Because the Court of Appeals did not pass on
petitioner’s current constitutional claim, it should be
assumed that it was not properly presented in the state
courts, unless the aggrieved party can affirmatively show
to the contrary. Board of Directors of Rotary Intern. v.
Rotary Club of Duarte, 481 U.S. 537, 549 (1987); see Exxon
Corp. v. Eagerton, 462 U.S. 176, 181 n.3 (1983) (quoting
Fuller v. Oregon, 417 U.S. 40, 50 n.11 (1974)). Petitioner
cannot meet this burden because he specifically limited
the issue so that the Court of Appeals had no cause to
consider or address the constitutionality of the Reid rule.
Most notably, in his submissions before the state’s
highest court, petitioner affirmatively narrowed the
issue for review, stating that “[t]he only issue before this
Court is whether the defense opened the door to Morris’s
testimonial hearsay …” JA.385. Petitioner faulted the trial
court for misapplying Reid and argued that the Appellate
Division incorrectly found he had created a misleading
impression at trial. JA.385-86. Petitioner’s submission
avoided the larger constitutional issue and cited no case
law suggesting that the Reid rule was unconstitutional
or that an alternative rule should apply, notwithstanding
that all relevant cases were available at the time. Notably,

20
petitioner relied upon United States v. Sine (493 F.3d 1021,
1038 (9th Cir. 2007)), a case analyzing the opening-thedoor doctrine as a pure evidentiary matter as codified
in the Federal Rules of Evidence. In reply, petitioner
complained that the trial court “did not invoke the
operative aspects of the opening-the-door doctrine” set
out in Reid, and further pressed that its “ruling reflect[s]
a basic misunderstanding of the Reid doctrine.” JA.406.
By specifically narrowing the issue in the way that
he did— claiming only that he had not opened the door
under Reid—petitioner denied the Court of Appeals the
opportunity to reach the broader constitutional question
that he presents for this Court’s consideration now,
namely whether the Reid opening-the-door rule is itself
constitutional.
In his bid to seek a writ of certiorari, petitioner
acknowledged that the holding by the state’s highest court
did not reference the Confrontation Clause. Petition for
a Writ of Certiorari 9; Petitioner’s Certiorari Reply 5.
Nevertheless, petitioner argued that the court necessarily
proceeded from the premise that the Reid rule comports
with the Confrontation Clause. Pet. Certiorari Reply
5-6. The court, however, had no reason to question the
constitutionality of the rule or to consider modifying it
because petitioner did nothing to suggest that the Reid
rule was constitutionally infirm. On the contrary, because
petitioner challenged only whether he had opened the door,
he signaled that the rule, when properly applied, provided
adequate constitutional protection.
It was not enough for petitioner to argue only that his
federal right had been violated. As this Court’s ruling in

21
Adams v. Robertson (520 U.S. 83 (1997)) demonstrates,
a grant of certiorari is improvident when, because of the
way the federal claim was litigated, it was reasonable for
the state court to conclude that “the broader federal claim
was not before it.” Id. at 89. That is certainly true here.
Petitioner also asserted that it was not necessary
for him to present the claim to the Court of Appeals
because the court had only “recently” decided Reid. See
Petitioner’s Certiorari Reply 8 n.1. In fact, Reid had been
decided in 2012, seven years before petitioner presented
his claim to the state’s highest court. Petitioner had no
reason to think that the court would not be willing, in
an appropriate case, to consider the constitutionality of
the opening-the-door rule. Petitioner likely was aware
that the broader Confrontation Clause question—the
constitutionality of the Reid rule—was not appropriate
for review by the state’s high court in his case because
petitioner had failed to preserve the claim before the trial
court.7
7. Petitioner suggested that Riley v. California (573 U.S.
373 (2014)) warrants a different result. See Petitioner’s Certiorari
Reply 8 n.1. Petitioner argued that, in Riley, the petitioner had
argued before the state court that the state law rule did not apply
to him, not that the leading case had been wrongly decided under
the federal constitution Id. But, in its Brief in Opposition to the
petition for a writ of certiorari, the State did not allege that the
petitioner had failed adequately to present the constitutional
claim to the state court (Brief in Opposition to Petition, passim,
Riley v. California, 573 U.S. 373 (2014) No. 13-132, 2013 WL
5436662) and so there is no reason now to doubt that in fact the
federal claim was adequately presented in that case. Moreover,
even assuming that this distinction would have mattered in Riley,
that case only reached the California intermediate appellate
court and the California Supreme Court denied further review.

22
In fact, the Court of Appeals would have lacked
jurisdiction to review Petitioner’s current arguments. N.Y.
§ C.P.L. 470.05 (2). Petitioner now relies extensively upon
People v. Massie (809 N.E.2d 1102 (N.Y. 2004)), identifying
it as the progeny of the “leading case” on the opening-thedoor doctrine in New York. Pet. Brief 3. Notably, at trial,
Massie, invoking constitutional concerns, argued that
he had not opened the door to evidence of an otherwise
suppressed identification. Before the Court of Appeals,
Massie changed tack, arguing that the controlling state
precedent was “unacceptable,” insufficiently protected a
defendant’s constitutional rights, and that a “different and
stricter rule should be followed.” The Court of Appeals
held that because Massie “did not present this argument
to [the trial court] . . . [t]he issue is not preserved for our
review, and we do not address it.” Massie, 809 N.E.2d at
1105 n.3.
Thus, as Massie teaches, the Court of Appeals would
have had no power to reach the constitutional issue
petitioner now presents. Petitioner was undoubtedly aware
that his claim would have been expressly rejected as
unpreserved. 8 Petitioner should not be allowed to sidestep
the Court of Appeals’ jurisdictional limitations and ask
this Court to reverse on a rule that the state court had
no power to review. Presentment serves the important
policy of allowing a state court the opportunity to address
Riley likely had no reason to challenge the validity of a recent
and binding California Supreme Court ruling in the lower court.
Here, petitioner had every opportunity to make his claim before
the New York high court and failed to raise it.
8. The same attorney represented both Massie and petitioner
before the Court of Appeals.

23
these questions and “to rest its decision on an adequate
and independent state ground.” Gates, 462 U.S. at 222.
This Court has held that “[n]o particular form of words
or phrases is essential” to present a claim. Street, 394 U.S.
at 584, quoting New York ex rel. Bryant v. Zimmerman,
278 U.S. 63, 67 (1928). Similarly, it has acknowledged that
parties are not limited to the specific arguments raised
in state court in support of a presented claim. Yee v. City
of Escondido, Cal., 503 U.S. 519, 534-35 (1992). Those
exceptions to the general rule, however, do not apply to
unpreserved and unpresented claims that the state court
lacked power to review. Accordingly, the Court should
dismiss the petition as improvidently granted.
II. New York’s Door-Opening Doctrine is in Full
Accord with the Petitioner’s Right of Confrontation.
New York allows the admission of an out-of-court
statement that is otherwise inadmissible under the
Confrontation Clause if a defendant, by his actions at
trial, opens the door to that statement. Reid, 971 N.E.2d
at 356. In Reid, out-of-court statements were necessary
to correct defense counsel’s “misleading questioning and
argument.” Id. at 359. The remedy the court imposed—the
admission of the out-of-court statements—was warranted
based on defense counsel’s persistent course of conduct. Id.
at 358. Thus, only evidence that is reasonably necessary
to correct the misleading impression is permitted. This
doctrine, which was correctly applied by the trial court
in this case, is a procedural rule that is in full accord with
a criminal defendant’s right to be confronted with the
witnesses against him.

24
A.

A criminal defendant may act in a manner
inconsistent with preserving his constitutional
rights—the right of confrontation is no
different.

The right of confrontation, like any other constitutional
guarantee, is not absolute. Wholly apart from any
exceptions that may have applied at the time of the founding,
a criminal defendant, by his deliberate conduct at trial,
may waive the right to confrontation. Furthermore, state
rules and procedures properly allow a court to protect the
integrity of the adversarial trial process and ensure that
jurors are not lied to or otherwise misled by litigants.
New York’s opening-the-door rule is a valid procedural
mechanism that protects the government’s legitimate
interest in the integrity of the adversarial trial process.
1.

A criminal defendant’s constitutional
rights cannot be used to undercut the
integrity of trial process.

The Sixth A mendment’s Confrontation Clause
provides: “In all criminal prosecutions, the accused shall
enjoy the right ... to be confronted with the witnesses
against him.” In Crawford v. Washington, (541 U.S. 36
(2004)), this Court concluded that the Confrontation Clause
prohibits the introduction of testimonial statements by a
non-testifying witness, unless the witness is “unavailable
to testify, and the defendant has had a prior opportunity
for cross-examination.” Id. at 54, 68. Moreover, “[t]he
text of the Sixth Amendment does not suggest any openended exceptions from the confrontation requirement
to be developed by the courts.” Id. at 54. Rather, the
Confrontation Clause is “most naturally read as a

25
reference to the right of confrontation at common law,
admitting only those exceptions established at the time
of the founding.” Id.
The right to be confronted, however, is not without
limitation. This Court has long recognized that “general
rules of law of this kind, however beneficent in their
operation and valuable to the accused, must occasionally
give way to considerations of public policy and the
necessities of the case.” Mattox v. United States, 156 U.S.
237, 243 (1895).
The limitations—not exceptions—of constitutional
protections may be seen in other contexts, independent
of the court-created “prophylactic rules” relied upon
by petitioner. Pet. Brief 30-32. The Fifth Amendment
provides a ready example. A “pristine” application of
the Fifth Amendment privilege against compulsory
self-incrimination renders any “balancing of interests”
to be “impermissible.” New Jersey v. Portash, 440 U.S.
450, 459 (1979). And, of course, it is a violation of the
Fifth Amendment protection against compulsory selfincrimination for a prosecutor to ask the jury to draw an
adverse inference from a defendant’s silence. Griffin v.
California, 380 U.S. 609, 614 (1965).
Nevertheless, a defense attorney’s conduct at trial
may open the door to a remark by the prosecutor that
would otherwise be considered an improper comment on
a defendant’s silence and the exercise of his constitutional
right. In United States v. Robinson, 485 U.S. 25 (1988),
defense counsel repeatedly asserted at trial that the
government had unfairly denied defendant the opportunity
to explain his actions. In response, the government told

26
the jurors that defendant “could have taken the stand
and explained it to you …. The United States of America
has given him, throughout, the opportunity to explain.”
Id. at 27-28. This Court ruled that the prosecutor’s
comment was a fair response and not a violation of the
Fifth Amendment. But cf. Pet. Brief 32. In other words,
an otherwise offending remark is not a violation of the
constitutional privilege when a defendant, through his
lawyer’s trial conduct, opens the door.
This understanding of the limits of constitutional
protections has been applied to the Sixth Amendment
in other contexts. In Taylor v. Illinois (484 U.S. 400
(1988)), this Court found that Illinois’s discovery statute
did not violate the right to compulsory process despite
the fact that the statute authorized, as a sanction for the
failure to comply with state discovery rules, complete
exclusion of testimony from a defense witness. This Court
reasserted that the Sixth Amendment does not confer
upon a defendant a right that is “free from the legitimate
demands of the adversarial system; one cannot invoke
the Sixth Amendment as a justification for presenting
what might have been a half-truth.” Id. at 412-13 (quoting
United States v. Nobles, 422 U.S. 225, 241 (1975) (proper
to exclude testimony by a defense investigator because the
defense did not disclose a “highly relevant” investigator’s
report in compliance with a discovery rule)). On the
contrary, consonant with constitutional guarantees, the
state may impose rules that preserve
[t]he integrity of the adversary process, which
depends both on the presentation of reliable
evidence and the rejection of unreliable
evidence, the interest in the fair and efficient

27
administration of justice, and the potential
prejudice to the truth-determining function of
the trial process ….
Taylor, 484 U.S. at 414-15.
One of the most basic guarantees of the Confrontation
Clause is the right to be present in the courtroom at every
stage of the trial. Illinois v. Allen, 397 U.S. 337, 338 (1970).
Nevertheless, a defendant may relinquish the privilege of
personally confronting witnesses by consent or by conduct.
Id. at 342. When a defendant is disruptive, for example,
he may lose the right to be present and the court may
continue the trial in his absence. Id. at 346.
Notably, other remedies may be available to the court
to address a defendant’s obstreperous conduct, including
binding and gagging the defendant or holding him in
contempt and discontinuing the proceedings until the
defendant is no longer disruptive. Id. at 343-44. A court
may reasonably conclude these remedies are insufficient
under the circumstances. As a “calculated strategy,”
a defendant may “elect to spend a prolonged period
in confinement for contempt in the hope that adverse
witnesses might be unavailable after a lapse of time.”
The court “must guard against allowing a defendant to
profit from his own wrong in this way” and, therefore,
may choose to remove the defendant from the courtroom.
Id. at 345. In short, when a defendant, through his own
conduct at trial, tries to obtain an undue advantage, the
trial court “must be given sufficient discretion to meet the
circumstances of each case.” Id. at 343.

28
This Court’s precedents have “recognize[d] a right to
face-to-face confrontation at trial but have never viewed
that right as absolute.” Coy v. Iowa, 487 U.S. 1012, 1025
(1988) (O’Connor, J., concurring). Indeed, it is a trial
right that can be waived by a defense attorney when he
fails to object to offending evidence. See Melendez-Diaz
v. Massachusetts, 557 U.S. 305, 313 n.3 (2009); Diaz v.
United States, 223 U.S. 442 (1912); see also Pamela R.
Metzger, Confrontation Control, 45 Tex. Tech L. Rev.
83, 86-87 (2012).
Moreover, “the right to confront ... is not absolute
and may, in appropriate cases, bow to accommodate
other legitimate interests in the criminal trial process.”
Chambers v. Mississippi, 410 U.S. 284, 295 (1973).
“This interpretation of the Confrontation Clause is
consistent with [this Court’s] cases holding that other
Sixth Amendment rights must also be interpreted in
the context of the necessities of trial and the adversary
process.” Maryland v. Craig, 497 U.S. 836, 850 (1990).
In this regard, a defendant’s right of confrontation must
harmonize with society’s interest in accurate fact-finding
(see Bourjaily v. United States, 483 U.S. 171, 182 (1987))
and the integrity of the adversarial trial process. Taylor,
484 U.S. at 414-15.
Accordingly, a trial court must be able to address
those instances where a party attempts to press an
evidentiary advantage to mislead a jury. Thus, for
example, when a defendant “affirmatively resorts to [false]
testimony in reliance on the [prosecution’s] disability to
challenge his credibility,” (Walder v. United States, 347
U.S. 62, 65 (1954)), “[t]he interests of the other party and
regard for the function of courts of justice to ascertain

29
the truth become relevant, and prevail in the balance of
considerations determining the scope [of the constitutional
right involved].” Brown v. United States, 356 U.S. 148, 156
(1958); Jenkins v. Anderson, 447 U.S. 231, 236-238 (1980).
This Court’s holding in James v. Illinois, 493 U.S.
307 (1990), does not undermine this analysis. But cf.
Pet. Brief 33-34. In James, the key issue was whether a
defendant’s ability to present a defense would be “chilled”
by a fear of what a defense witness may accidently
testify to. James, 493 U.S. at 315. This Court declined
to “expand[]” the “impeachment exception” and did
not allow the prosecution to impeach a defense witness
using evidence that had been obtained in violation of a
defendant’s constitutional rights. Id. at 316. By contrast,
the issue presented here focuses on the intentional actions
and strategy of a defense counsel who seeks to inject
a misleading impression and undue speculation into a
trial based upon that counsel’s awareness of otherwise
inadmissible evidence. State courts should not be forced
to countenance such behavior and are permitted to craft
rules that are neither “arbitrary [n]or disproportionate
to the purposes they are designed to serve.” Holmes v.
South Carolina, 547 U.S. 319, 324 (2006).
2.

States can develop limited procedural
rules to deter misleading impressions.

This Court has stated that defendants need not
engage in any specific colloquy to relinquish their
Confrontation Clause protection. Melendez-Diaz, 557
U.S. at 313 n.3, 325-328. More important, “States [are
permitted to] adopt procedural rules governing” these
silent relinquishments. Id. at 313 n.3, 327. The opening-

30
the-door rule is not a new “open-ended exception” to the
Confrontation Clause. Crawford, 541 U.S. at 54. Nor does
this Court need to engage in an archival quest to uncover
one from the Framer’s era—no such exception was used in
this case. Pet. Brief 25 (citing Crawford, 541 U.S. at 54).
New York merely relies upon authorized state procedural
mechanisms that protect the equity and integrity of
the adversarial process and prevent a defendant from
weaponizing the Confrontation Clause as both a sword
and a shield.
Courts regularly apply procedural rules to find that
a defendant has relinquished his Confrontation rights.
The most common pathway involves the specific example
referenced by this Court in Melendez-Diaz, (557 U.S.
at 313 n.3), a failure to object and preserve the issue for
appeal. For example, in many states, including New York,
a defendant who merely raises a hearsay objection at trial
fails to preserve a Confrontation Clause claim against
that same evidence. See People v. Kello, 746 N.E.2d 166
(N.Y. 2001).9
9. In Melendez-Diaz, the Court referred to this as “waiver.”
In other cases, this concept is described as a forfeiture. See, e.g.,
United States v. Jones, 565 U.S. 400, 413 (2012) (“We consider the
argument [that was not raised below] forfeited.”) (citing Sprietsma
v. Mercury Marine, a Div. of Brunswick Corp., 537 U.S. 51,
56 n.4 (2002) (“Because this argument was not raised below, it
is waived.”)). Whether this Court chooses to call the concept a
waiver, forfeiture, or even “estoppel,” is immaterial to respondent’s
position that New York’s opening-the-door rule is a constitutionally
proper procedural rule. See 21 Charles Alan Wright et al., Federal
Practice and Procedure § 5039.1 (2d ed. 2021); see also 1 Kenneth
S. Broun et al., McCormick on Evidence § 55 n.1 (8th ed. 2020)
(defending the chapter’s title “Waiver of objection” as “a convenient
label for various doctrines of preclusion.”).

31
Procedural rules that result in the relinquishment of
Confrontation Clause rights, such as a defendant’s failure
to object, are permissible. Determining whether evidence
that is excluded by the Constitution is otherwise admissible
“depends upon the nature of the constitutional guarantee
that is violated.” Kansas v. Ventris, 556 U.S. 586, 590
(2009). Here, the Confrontation Clause is “a procedural
rather than a substantive guarantee.” Crawford, 541
U.S. at 61. The exercise of this right must be evaluated
through this lens. Accordingly, while “the Confrontation
Clause imposes a burden on the prosecution to present
its witnesses,” the defendant “always has the burden” of
protecting this right. Melendez-Diaz, 557 U.S. at 324-27.
Although petitioner categorizes New York’s rule
as purely evidentiary, Reid’s opening-the-door rule
is better understood as a broader procedural rule
designed to preserve the integrity of the adversarial
factfinding process at trial. The rule simply recognizes
that a defendant should not be permitted to manipulate a
procedural guarantee in a strategically deceptive manner
and then be heard to complain that the trial court failed
to protect the guarantee for him. Essentially, the rule
treats the misleading door-opening actions of counsel
as the equivalent of failing to object to the confrontation
violation.
This doctrine is not an exception to the right of
confrontation because the admissibility of the statement—
for constitutional as opposed to evidentiary or merely
hearsay purposes—is not based on the trial court’s
assessment of the statement’s reliability or some other
mechanism that serves as a supposed substitute for
confrontation or an alternate means of determining
reliability. The rule does not operate as an “open-ended

32
balancing test[]” to determine the reliability of the outof-court statements. Crawford, 541 U.S. at 68. Rather,
the admissibility of the statement depends on the course
of conduct of the defendant or his counsel.
Moreover, this is not about what is fair to the
prosecution. It is about the jurors and the integrity of the
trial process. “More is at stake than possible prejudice to
the prosecution. We are also concerned with the impact of
this kind of conduct on the integrity of the judicial process
itself.” Taylor, 484 U.S. at 416.
Unsurprisingly then, this same door-opening concept
is applicable to many other constitutional protections that
are also procedural in nature. Ventris, 556 U.S. at 590
(violation of Sixth Amendment right to counsel); Harris
v. New York, 401 U.S. 222 (1971) (violations of the Fifth
and Sixth Amendment Miranda protections); Walder, 347
U.S. at 62 (violations of the Fourth Amendment).10 This
case falls completely outside any discussion of historical
exceptions, or treatises relating to the Confrontation
Clause’s evidentiary scope as understood by the Framers.
After all, no one has ever alleged an eighteenth-century
basis for this Court’s approval of procedural notice-anddemand statutes governing forensic science evidence.
Melendez-Diaz 557 U.S. at 325-27; see also Briscoe v.
Virginia, 559 U.S. 32 (2010); see generally Jennifer B.
Sokoler, Between Substance and Procedure: A Role for
States’ Interests in the Scope of the Confrontation Clause,
110 Colum. L. Rev. 161, passim (Jan. 2010) (surveying
10. Although Harris and Walder speak to court-created
prophylactic rules (Pet. Brief 31), Ventris is addressed to a Sixth
Amendment trial right.

33
notice-and-demand statutes). Again, these “notice-anddemand” statutes treat counsel’s failure to “demand” as
the equivalent of failing to object to the confrontation
violation. 2 J. Wigmore, Evidence in Trials at Common
Law § 1397, p 1759 n. 9 (1st ed.1904) (gathering cases
relating to waiver of the right of confrontation, including
those involving the failure to object).
This Court’s decision in Portash (440 U.S. 450), as
evaluated in Ventris, strengthens the argument that the
confrontation right is subject to procedural limitations.
The text of the Sixth Amendment states that “[i]n all
criminal prosecutions, the accused shall enjoy the right
[] to be confronted with the witnesses against him…”
The constitutional text does not outline the contours of
that right, nor does it contain an “explicit mandate[]”
(Ventris, 556 U.S. at 590) that demands exclusion of all
unconfronted testimony.
By comparison, the text of the Fifth Amendment is
much clearer: “[n]o person [] shall be compelled in any
criminal case to be a witness against himself.” So long as a
court makes a finding that a defendant’s testimony has been
compelled, any balancing of interests is “impermissible”
because the application of this substantive guarantee
is in “its most pristine form.” Portash, 440 U.S. at 459.
No such sweeping, substantive prohibition applies to the
Confrontation Clause, and petitioner cannot point to one
in the constitutional text.
Another example of the door-opening principle at
work is the rule of completeness. In his amicus brief in
support of petitioner, Richard D. Friedman explains that
the rule, which is partially codified in Rule 106 of the

34
Federal Rules of Evidence, “has common-law roots going
back long before adoption of the Confrontation Clause”
and is based on principles of fundamental fairness. Brief
of Richard D. Friedman as Amicus Curiae in Support of
Petitioner, at 18. The rule recognizes that “[p]resenting
one portion of a statement, or set of statements, may give
a very misleading sense of the declarant’s meaning, which
can be corrected by presenting other portions as well.”
Id. at 18-19.
If evidence barred under the Confrontation
Clause were inadmissible irrespective of a
defendant’s actions at trial, then a defendant
could attempt to delude a jury “by selectively
revealing only those details of a testimonial
statement that are potentially helpful to the
defense, while concealing from the jury other
details that would tend to explain the portions
introduced and place them in context.”
Reid, 971 N.E.2d at 353 (quoting People v. Ko, 789
N.Y.S.2d 43 (N.Y. App. Div. 2005); see People v. Taylor, 20
N.Y.S.3d 708, 712 (N.Y. App. Div. 2015) (applying Reid to
admit remaining testimonial statements made by a nontestifying witness to contextualize statement elicited by
defense counsel). This would be unfair and against the
truth-seeking function of the courts. Reid, 971 N.E.2d
at 353.
The rule of completeness is not an exception to the
Confrontation Clause and does not offend this court’s
decision in Crawford because “Crawford forbids only
the admissibility of evidence under [rules] purporting to

35
substitute another method for [the] confrontation clause
test of reliability.” People v. Vines, 251 P.3d 943, 968-69
(Cal. 2011), as modified Aug. 10, 2011, overruled on other
grounds by People v. Hardy, 418 P.3d 309 (Cal. 2018).11
In contrast, the rule of completeness is tethered to the
conduct of the litigant. When the proponent of a partial
statement uses the right that it
enjoys under the Rules—not as a shield to
prevent the admission of potentially unreliable
evidence, but as a sword to manufacture a
misleading impression of the evidence—the
proponent should forfeit the right to object to
a completing remainder. It is hardly radical to
conclude that a misleading presentation forfeits
the right to object to otherwise inadmissible
evidence needed to correct the misimpression.
Daniel J. Capra & Liesa L. Richter, Evidentiary Irony
and the Incomplete Rule of Completeness: A Proposal
to Amend Federal Rule of Evidence 106, 105 Minn. L.
Rev. 901, 939 (2020). Clearly then, states are permitted
11. The rule of completeness is only “partially codified” in Rule
106 of the Federal Rule of Evidence. See 1 McCormick on Evidence,
supra, § 56 (citing Beech Aircraft Corp. v. Rainey, 488 U.S. 153, 155
(1988)). This may reflect the fact that Rule 106 addresses evidentiary
concerns while the rule of completeness speaks also to broader
constitutional concerns. Notably, too, although petitioner suggests
that the rule of completeness violates the Confrontation Clause, two
of the amici recognize that that assertion is incorrect. Compare Pet
Brief 36-40, with Brief of Richard D. Friedman, supra, at 17-21, and
Brief of Association of Criminal Defense Lawyers of New Jersey in
Support of Petitioner, at 20-21.

36
to craft procedural rules that govern the relinquishment
of this right.
Opening the door should be treated no differently.
These rules operate as procedural bars for the dooropening party to object to evidence that enters through
that door. Some courts even state this explicitly. See e.g.
People v. Cook, 498 N.Y.S.2d 414, 415 (N.Y. App. Div.
1986) (“defendant waived any objection to the testimony
in question when he opened the door”); State v. Garcia,
652 P.2d 1045, 1049 (Ariz. 1982) (stating “door opening”
is equivalent to failing to object); People v. Hopson, 396
P.3d 1054, 1065 (Cal. 2017) (“door opening” forecloses
objection); State v. Payne, 34 A.3d 370, 384 (Conn. 2012)
(same). Others implicitly say so. See State v. El’Ayache,
618 P.2d 1142, 1143 (Haw. 1980) (“…where such waiver is
considered as a matter of trial tactics and procedure.”).
Put another way, petitioner cannot find any Framer’s-era
door-opening exception to the Confrontation Clause, since
it is not an exception to the Confrontation Clause at all.
It exists as a separate procedural mechanism designed
to regulate the recognition of defendants’, and even the
government’s, objections across multiple doctrines that
may bar admission of evidence. See, e.g., 1 J. Wigmore,
supra § 15, p. 43 (describing the rule as “estopping”
subsequent objections to inadmissible evidence).
This Court’s reasoning in Giles v. California (554
U.S. 353, 365 (2008)), narrowly construing the historical
exception of forfeiture by wrongdoing, does not affect this
analysis. The conduct underlying forfeiture by wrongdoing
(with the intent to keep the witness away) occurs outside
of the trial process itself; the conduct is extrajudicial.
Once court proceedings have been initiated against a
defendant, the consequences of his conduct within those

37
court proceedings are properly regulated by court rules.
Melendez-Diaz, 557 U.S. at 324-27. Here, the door-opening
doctrine addresses a counsel’s strategy that involves the
trial process, in the same way as failing to timely object
or failing to comply with discovery obligations.
Some commentators have become bogged down with
labels and parsing out fine distinctions between “invited
error,” “curative admissibility,” or “specific contradiction
doctrine,” as each jurisdiction chooses its own way to craft
the rule. See Francis A. Gilligan & Edward J. Imwinkelried,
Bringing the “Opening the Door” Theory to A Close: The
Tendency to Overlook the Specific Contradiction Doctrine
in Evidence Law, 41 Santa Clara L Rev 807, 822 (2001);
21 Charles Alan Wright et al., Federal Practice and
Procedure § 5039.1 (2d ed. 2012); see State v. Groce, 111
A.3d 1273, 1277 (Vt. 2014) (combining three of the terms
into the same concept). These distinctions are beside the
point, as is the observation that one state’s opening-thedoor rule may operate differently than another. What
is important is that the New York rule is grounded in
the court’s core responsibility to maintain the integrity
and truth-seeking function of the adversarial process.
See e.g. Kansas v. Cheever, 571 U.S. 87, 94-95 (2013) (not
allowing the prosecution in rebuttal to present psychiatric
evidence obtained from a court-ordered evaluation would
undermine “the core truth-seeking function of the trial”).
B. New York’s door-opening rule is constitutional
and was properly applied.
New York’s rule is straightforward and requires
trial courts to engage in a thoughtful, “case-by-case,”
“twofold” inquiry: “whether, and to what extent, the

38
evidence or argument said to open the door is incomplete
and misleading, and what if any otherwise inadmissible
evidence is reasonably necessary to correct the misleading
impression.” Reid, 971 N.E.2d at 357 (quoting Massie,
809 N.E.2d at 1105). Under the unique circumstances
of this case, the court was right to conclude that a very
circumscribed portion of Morris’s plea allocution was
necessary to correct a misleading impression that defense
counsel had created through his persistent defense
strategy.
At trial, petitioner presented a third-party culpability
defense implicating Morris as the one who fired the fatal
shot. Aspects of this defense were perfectly “appropriate”
(JA.185) and, without any additional misleading or calls
for speculation on the part of defense counsel, would not
have justified the admission of Morris’s plea allocution. For
example, counsel highlighted evidence that eyewitnesses
had initially identified Morris in a lineup, that the police
had found a 9-millimeter bullet in Morris’s apartment,
as well as testimony that when police arrested Morris
the day after the shooting, he had bruises on his hands.
Eliciting this evidence, making reasonable arguments
based on this evidence and asking the jurors to make
reasonable inferences based on this evidence was fair
and proper. Even though the lineup evidence, the bullet,
and Morris’s bruises may have contradicted the People’s
theory that petitioner was the shooter, the evidence and
the reasonable inferences that flowed from it were not
misleading. They were fair game and did not open the
door to testimonial hearsay.
The court understood this distinction perfectly.
When the prosecutor initially argued that counsel’s

39
opening remarks about the 9-millimeter bullet in Morris’s
apartment opened the door to Morris’s plea allocution, the
court noted that Morris’s allocution statement that he had
possessed a .357 magnum at the time of the shooting was
certainly relevant. The defense had put the issue squarely
in play, and if Morris had testified against petitioner,
it would have been proper for Morris to tell the jurors
that he had possessed a .357 magnum. However, as the
court explained, the fact that the evidence was relevant
“doesn’t mean you can prove it any way possible” or that
it is admissible under the constitution. JA.106-09.
Defense counsel, however, was not content to rely on
the factual evidence that implicated Morris and make
appropriate arguments based on that evidence. Rather,
counsel advocated that the jurors should reach their
conclusions about Morris’s involvement based, in part, on
what the police and government officials believed at the
point when they were still pressing charges and pursuing
a prosecution against Morris for murder. Counsel focused
not merely on facts and eyewitness observations, but on
the beliefs and opinions of government actors, and invited
speculation about what had happened to Morris’s case.
Counsel’s effort in this regard was neither inadvertent,
nor a momentary lapse. It was a persistent part of his
strategy. Before the trial, defense counsel moved—in
writing (Defense Motion dated 8/31/15) and orally (JA.4344)—to admit at petitioner’s trial portions of the opening
statement that the prosecutor had made at the Morris
trial in 2008. The court denied the request. Notably, the
court observed that counsel’s effort to use the prosecutor’s
previous opening as though it were “factual evidence
that should be considered for its truth is an unacceptable

40
argument on your part.” JA.51. Accordingly, the court
ruled that
[t]o allow this to be presented is, in my
judgment, to elevate legal argument to the
category of factual evidence and will mislead
the jury terribly and have no proper relevance,
and for that reason I am quite confident that this
is not something that should be presented to the
jury in any fashion whatsoever, particularly as
an admission of a party which is, in effect, an
invitation to the jury to consider it for the truth
of the content. That is an exception to hearsay.
I will not allow that be presented to the jury
in this case.
JA.48.
Then, defense counsel argued that the jurors were
entitled to know that Morris had been “indicted and
brought to trial for this crime.” JA.53. The court noted
that whether “the district attorney’s bureau or anybody
else evaluated that evidence in a particular way is not
… relevant.” “It is “almost vouching.” “[W]hether the
district attorney’s office believes that there was any
merit to [Morris’s] case … they could be right, they could
be wrong, but their judgment is sort of not the point.”
JA.54. “[I]t doesn’t matter what the police believed here.
What matters is what this jury believes on the basis of
what people with firsthand knowledge of the events …
have presented.” JA.55. Jimick’s “conclusion as to who to
believe” or “which account to believe is not evidence that
which should come in.” JA.56.

41
At another proceeding, defense counsel expressed his
concern that when jurors learned that Morris had been
arrested, they might speculate that he had been acquitted.
Tr.189-91[10/07/2015]. Counsel did not want the jurors to
assume that Morris was “not the guy.” Tr.190. The court
cautioned that if it granted the defense request to illicit
“all the history” including
the indictment, the trial [of Morris], then it’s
sort of a slippery slope because it also invites
evidence about what happened to the case, why
it happened. You know, who screwed up, who
didn’t screw up. It really does invade, I think,
the realm that is between the court and counsel
but not the jury. The jury really shouldn’t be
speculating.
Counsel agreed. Id.
Prior to this discussion, counsel had requested
that the court instruct the jurors that they were not to
speculate about what happened to Morris. JA.103. During
jury selection, the court instructed the jurors accordingly.
JA.165-66. Nevertheless, throughout the trial, defense
counsel improperly suggested that the police and the
government had believed that Morris was the shooter
and invited irrelevant speculation as to what happened
in Morris’s prosecution.
In his opening statement, counsel told the jurors that
the police found a 9-millimeter bullet in Morris’s bedroom,
which was the same caliber of ammunition that was used
to kill the child. JA.90-91. Counsel argued that, in part
because of the discovery of the bullet, the police “think

42
we got the right guy.” JA.90. When Gilliam subsequently
reported to the police that petitioner was the shooter,
“nobody believes him. Jimick doesn’t believe him. The
DA doesn’t believe him.” JA.89. “[T]hey arrest Morris.
They charge Morris. They believe Gilliam’s first statement
[that Morris was the shooter]. They don’t believe his later
statements when he changes his mind, and they believe
his first statement …” Id. Counsel stated that despite the
lineup evidence, the 9-millimeter bullet, and the bruises on
Morris’s hands, “[s]ome cases never get proven and that’s
very frustrating, and it’s awful for the [p]eople involved,
for the family, but it’s no reason to convict an innocent
person.” JA.98 (emphasis added). In this way, counsel
suggested that Morris had not been held accountable, left
the jurors to speculate that Morris’s prosecution failed,
and that the People were wrongly prosecuting his client
to make up for their failure.
In response, mid-trial, the prosecutor moved to
admit Morris’s plea allocution, evidencing that Morris
was carrying a .357 gun on the day Pacheco was shot,
to rebut counsel’s argument that Morris was carrying a
9-millimeter gun. JA.101-05. The court acknowledged the
allocution’s relevance but recognized the Confrontation
Clause issue and deferred decision until the prosecutor
could provide him with applicable caselaw. JA.107-09.
Later, the court acknowledged it had yet to render a
decision regarding the allocution’s “formal” admissibility.
JA.120.
Meanwhile, during the cross-examination of Jimick
and Gilliam, counsel continued to focus on the conclusions
that the police and prosecutors had reached about Morris’s
involvement, while leaving jurors to speculate about what
had happened to Morris’s case. Counsel elicited that, after

43
the lineups were conducted on April 18, Jimick arrested
Morris. At that point, Jimick asked for the case to be
closed, and it was closed. Tr.767,771-72. The case against
Morris proceeded and petitioner was not arrested until
2013. JA.171; Tr.772. After Gilliam made statements to
the police on April 26, May 9, and May 10, 2006, including
statements identifying petitioner as the shooter, Morris
stayed in jail. Id.
Outside the jury’s presence (and between Jimick and
Gilliam’s testimonies), the issue of Morris’s allocution was
again discussed. Contrary to petitioner’s contention, both
parties conceded that Morris was unavailable; he had left
for Barbados, was denied reentry due to this conviction,
and federal authorities were generally unwilling to grant
a special visa for his testimony. Pet. Brief 10; JA.139,14244. After a lengthy discussion about whether the plea
allocution satisfied the statement against penal interest
exception to the rule against hearsay (JA.144-56,158-162),
the court deferred arguments relating to the separate
Confrontation Clause issue. JA.162.
After Gilliam testified, the court addressed the issue
conclusively and cited to the test outlined in Reid. JA.184.
The court reasoned, based on the defense opening and
“the examination of witnesses thus far,” a “significant
aspect of the defense” rested on Morris originally being
“prosecuted for this homicide,” and in turn, being the
“actual shooter.” JA.184. The court further commented
that the actual evidence that led to the district attorney’s
office in concluding that Morris was not responsible for
the shooting had not been published to the jury. JA.185.12
12. The court further made a finding of reliability, (JA.18587), but that was in the context of resolving the outstanding fourth

44
The court ruled that based on the arguments the
defense had already made and the arguments that the
court anticipated defense would make, the defense had
“open[ed] the door to the admission of [the] portion of
Morris’ allocution, to the extent that it acknowledges
that he was in possession of” a .357 magnum and not a
9-millimeter. JA.185-86. The parties then agreed as to
a redacted version of the allocution which was read into
evidence. JA.190-209.
As the court anticipated, counsel argued in summation
that “[t]his case is a mess. It was a mess before Darrel
Hemphill got arrested and it’s a mess now.” JA.214.
“[W]hat we have seen is how evidence over time can
be changed and manipulated to try and get a certain
verdict …” Id. Counsel clarified that he was not talking
about the witnesses themselves. “What I mean is the
manner in which the evidence was presented to you [by
the government] during the trial, not, I would submit
to get to the truth, but to get to a certain particular
verdict.” JA.214-15. Counsel further maintained that the
government,
believed and credited and found [witnesses] to
be reliable and truthful back in 2006, 2007 and
2008, when this was a Morris case … and now,
because [the government] want[s] some other
verdict, now that there is a new person being
charged … now they say, hey, those witnesses
really aren’t believable, those witnesses really
didn’t see what they said they saw and believed
factor in New York’s statement against penal interest rule. See
People v. Soto, 44 N.E.3d 930 (N.Y. 2015).

45
they saw back then, those witnesses are all
making mistakes and that evidence and those
identifications that we relied upon, you should
ignore those now because it’s a new game.
JA.215. Counsel continued, pointing to what the detectives
believed, by arguing that after Gilliam told the police
that petitioner was the shooter, the detectives “found
him … not to be believable.” JA.215. The detectives did
not go out and arrest petitioner, counsel posited, because
they “didn’t think he was a reliable witness.” Id. But
once Gilliam “signs a cooperation agreement, and all of
a sudden” Gilliam is “trustworthy” and “believable.” Id.
The consistent, pervasive defense strategy—pointing
to what the government had believed about Morris’s
involvement—was misleading and unfair. The court
denied the pretrial request to introduce the prosecution’s
opening statement at Morris’s trial, but the court’s ruling
and instructions did not dissuade the defense. As detailed,
the defense persisted at every turn by eliciting evidence
and arguing that the jurors should rely on what the
government believed when it charged Morris.
While the government initially charged Morris with
murder and related charges, it ultimately dropped those
charges. The prosecution of Morris did not fail. The
government realized that Morris was innocent of the
murder, allowed him to plead guilty to the offense that he
was guilty of committing, and did not charge petitioner
until five years later.
Here, what any individual government actor believed
at the time the charges were pending against Morris was

46
irrelevant to the jurors’ assessment of petitioner’s guilt
or innocence, exactly as the judge had ruled all along.
See United States v. Morel, 751 F.Supp.2d 423, 434-35
(E.D.N.Y. 2010) (evidence that the government declined
to prosecute co-arrestees risked confusing the jury and
the government’s explanation of the decision is likely to
prompt speculation); People v. Thompson, 970 N.Y.S.2d
620, 630 (N.Y. App. Div. 2013) (error for the detective to
explain why the charges against the co-defendant were
dropped because he “effectively conveyed his opinion
that the defendant was guilty of the charges for which
he was on trial”). Indeed, “[t]he line is crossed,” as it
was here, when a witness “conveys—either directly or
indirectly—a personal opinion regarding the defendant’s
criminal guilt.” People v. Kozlowski, 898 N.E.2d 891, 901
(N.Y. 2008).
When determining whether the jurors, as the triers
of fact, believed Gilliam’s testimony that petitioner was
the shooter, it was improper for the jurors to consider and
speculate about whether a particular government actor,
like Jimick, or the government as a larger entity, believed
at one point that Morris was the shooter or believed that
Gilliam was telling the truth. Accordingly, given the
unusual nature of this case, as well as the persistence
of defense counsel in inviting speculation as to the inner
workings of Morris’s prosecution, it was proper for the
court to find, over the course of more than 50 pages of
transcript spread throughout the course of the trial,
that petitioner could no longer lodge a Confrontation
Clause objection to the admission of the allocution that
was required to correct the misleading impression he
continued to perpetuate.

47
Moreover, contrary to petitioner’s arguments, New
York’s rule is not a freewheeling exercise that “threaten[s]
to swallow the right [of confrontation] itself.” Pet. Brief 15.
On the contrary, it has extremely limited applications and
the rare instances when it will apply are entirely within
defense counsel’s control. Furthermore, the rule is not
triggered whenever the defense tries merely to contradict
the People’s theory of the case. New York’s bar is high
for an impression to be so misleading that unconfronted
testimonial hearsay is required to correct it.
There is no reason to think the rule will apply
whenever a prosecutor claims that inadmissible evidence
conflicts with a third-party defense. Notably, in People
v. Richardson, (943 N.Y.S.2d 599 (N.Y. App. Div. 2012)),
the defendant’s conviction was reversed because the trial
court erred in determining that Richardson’s third-party
defense, standing alone, created a misleading impression
sufficient to constitute a waiver of the Confrontation
Clause. In another case, People v. Schlesinger Elec.
Contractors, Inc., (39 N.Y.S.3d 135, 137 (N.Y. App. Div.
2016)), the conviction was reversed because the trial
court erred in admitting a non-testifying co-defendant’s
plea allocution. There, the reviewing court found that a
witness’s answer that he did not know whether anyone at
another company had been prosecuted was not misleading,
and even if it had been, admission of the allocution was
unwarranted. Id.
Indeed, as a guiding principle, the door-opening
rule in New York is subject to significant limitations
that prevent against the “parade of horribles” theorized
by petitioner and the amici in support of him. A finding
that defendant has opened the door “does not justify

48
blunderbuss rejoinder.” People v. Bagarozy, 522 N.Y.S.2d
848, 855 (N.Y. App Div. 1987). No party ever runs the
“risk that any evidence relating to it, no matter how
remote or tangential, will be brought out.” Id. (citing
People v. Melendez, 434 N.E.2d 1324, 1328-29 (N.Y. 1982)
(door was not open so wide as to warrant introduction
of hearsay evidence); see also People v. Francis, 131
N.Y.S.3d 342, 344 (N.Y. App. Div. 2020) (“this was not
a sufficiently material issue to warrant introduction of
such evidence”). Again, the door is open only to evidence
that is “reasonably necessary to correct the misleading
impression” (Reid, 971 N.E.2d at 357), a limitation with
longstanding common-law roots. 1 J. Wigmore, supra
§ 15, p. 46 (describing the “Massachusetts rule” as only
permitting the now-admissible evidence “whenever it is
needed for removing an unfair prejudice which might
otherwise have ensued from the original evidence, but
in no other case.”).
Any fear that a defendant’s right to present a defense
would be chilled by defense counsel’s hesitation in
accidently opening a door to testimonial hearsay through
an unexpected answer from a witness is unfounded. Pet.
Brief 33-34 (citing James, 493 U.S. at 313-14). The rule
does not operate as a windfall for the prosecution if the
defense should accidentally cross the center line. Counsel
must be aware of the inadmissible evidence prior to
opening the door. See, e.g., People v. Ames, 501 N.Y.S.2d
165, 166 (N.Y. App. Div. 1986). The door opening must be
done through some affirmative action of defense counsel
and counsel’s conduct must be deliberate. In any event,
diligent trial counsel should already be “on perpetual
guard” for both constitutional and non-constitutional door
opening of evidence, no different than being vigilant in
listening for objections. Pet. Brief 34.

49
In sum, New York did not violate petitioner’s
Confrontation Clause rights because the right can
be regulated through non-arbitrary trial procedures
governing objections, including New York’s door-opening
rule, and the New York rule was properly applied.
III. If the Trial Court Erred in Admitting Morris’s Plea
Allocution, the Error was Harmless.
Confrontation Clause errors are subject to a harmless
error inquiry, Davis v. Washington, 547 U.S. 813, 829
(2006), a question raised but not resolved in the state court.
Any alleged error in the admission of Morris’s redacted
plea allocution was totally harmless. Not only was there
substantial independent evidence of petitioner’s guilt, but
the plea allocution was cumulative to Gilliam’s testimony,
and any prejudice was neutralized because, along with
Morris’s allocution, the jurors also heard statements by
Morris’s attorney explaining Morris’s motives to accept
the deal. Therefore, if any error occurred in admitting
Morris’s plea allocution, the People ask this Court to find
that the error was harmless beyond a reasonable doubt
or, in the alternative, to remand to the state court to
determine in the first instance. See Melendez-Diaz, 557
U.S. at 329 n.14; see also Bullcoming v. New Mexico, 564
U.S. 647, 668 n.11 (2011).

50
CONCLUSION
This Court should dismiss the petition as improvidently
granted or, in the alternative, affirm the judgment of the
New York Court of Appeals.
Respectfully submitted,
Gina Mignola*
Deputy General Counsel
Nancy D. Killian
Chief of Appeals
Noah J. Chamoy
Robert C. McIver
Paul A. A ndersen
Morgan Namian
Assistant District Attorneys

Darcel D. Clark
Bronx County District
Attorney’s Office
198 East 161st Street
Bronx, New York 10451
(718) 838-7199
mignolag@bronxda.nyc.gov

*Counsel of Record
Counsel for Respondent

